No.

IN THE
Supreme Court of the Anited States

 

 

EDWARD McCAIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
MOTION TO PROCEED IN FORMA PAUPERIS

Petitioner Edward McCain, though undersigned counsel, asks leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis. Counsel was appointed in the United States Court of Appeals for
the Fourth Circuit and in the United States District Court for the District of South
Carolina pursuant to 18 U.S.C. ยง 30064.

This the 8th day of March, 2021.

Respectfully submitted,

 

ELLATE ATTORNEY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450
Raleigh, N.C. 27601
(919) 856-4236
jackie_tarlton@fd.org
Counsel for Petitioner
